/■^>r;'vr. ,^r

21--123

FILED
JUL 2 6 2021
OFFICE OF THE CLERK
SUPREME COURT 11 fi

IN THE
SUPREME COURT OF THE UNITED STATES

^

— PETITIONER

(Your Name)
vs.

Inc.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

\\t HftiHJSVafes Court oP

£(€v/mfr) CWouiAr

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

\4aMW\kt Tv 1/vig yhn
(Your Name)

10*313 D
(Address)

QuMtr'Bcul (Tuy«i(K.
(City, State, Zip Code)

5-876-303*
(Phone Number)

QUESTION(S) PRESENTED
• The plaintiff/Appellant act of committing a security breach were not mentioned
throughout the case.
* Symptoms of the Plaintiff/Appellant's anemia condition were not considered a
disability, on the day of the incident, that allegedly resulted in the security breach that
led towards her employment termination with the business.
• Privacy concerns after the termination was not considered a major factor although
information presented in the case suggested otherwise.

[I]
>

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
Marguerite T. Martin v. Teleperformance Inc., No. 18-cv-62488-RAR, U.S. District Court of
Southern Florida. Judgement entered January 28,2020.
Marguerite T. Martin v. Teleperformance Inc., No. 20-10462, U.S. Court of Appeals for the
Eleventh Circuit. Opinions entered February 23,2021. Rehearing Denial entered April 20,
2021.

[II]

TABLES OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2-3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4-6

STATEMENT OF THE CASE

7

REASONS FOR GRANTING THE WRIT

8-9

CONCLUSION

10-11

Index of Appendices
Appendix A: District Court Final Judgement
Appendix B: United States Court of Appeals Opinions
Appendix C: Court of Appeals Denying both Petition for Rehearing & Rehearing En Banc
Appendix D: EEOC Determinations
i

ft

0

[HI]

Tables of Authorities
Cases:
Pirtek USA, LLC v. Twillman 2016 WL 5846978, *5, M.D. Fla.
Jacobs v. N.C. Administrative Office of the Courts. United States Court of Appeals, Fourth
Circuit. March 12,2015,780 F.3d 562 2015.

Statutes:
$304.20 General provisions. 1 C.F. R. Subpart B

Other:
Thomson Reuters Westlaw, Online Library.

i W-

'SM1

£

[IV]

IN THE
BOPREMEXOORT OF THE UNITED-STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

^ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.

&to

The opinion of the United States district court appears at Appendix /V
the petition and is

to

it ] reported at-------------------------------------------------------- ; or,
[ j hasJbjENen designated for publication but is not yet reported; or,
is unpublished.
• /-

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

■

%

The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at____
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was —fid

fcbrug/ij 53,aca/

[ ] No petition for rehearing was timely filed in my case.
HQ A timely petition for rehearing was denied by the United States Court of
' Appeals on the following date: it
Qtoty and a copy of the
/i nprtl
order denying rehearing appears at Appen
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ________________ (date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

«■$

,

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including___
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

eONSTITUTIONMJ-AND STATlITORY PROVISIONS INVOLVED
Southern District Court Constitutional and Statute

ry provisions:

Federal Rules of Civil Procedures and Local Rules for Southern District Florid
a (see attached
file).
The United States Court of Appeals for the Eleventh Circuit Constitutio
provisions:
Federal Rules ofAppellate Procedures (FRAP)
FRAP 39,24(a), 28,32,25(d), 30(a)(1)
11th Circuit Rules 28-1,28-3,28-5, 12-1,30-1,30-2,42-3,40-3

vt'

4

nal and Statutory

>

Statement of the case

Marguerite T. Martin vs. Teleperformance Inc. case involves the termination of Marguerite T.
Martin on January 9,2018, for reason of a security breach. Marguerite T. Martin was diagnosed
as being anemic the year of 2017, the year of employment (September 2017). PlaintifEAppellant
termination information was discussed about the alleged “security breach” and the outcome has
damaged the PlaintifffAppellant’s future employment endeavors due to people cognizant of this
information. A mediation meeting did take place between the plaintiff and Defendant’s attorneys
ordered by the Southern District Court on August 6,2019; however, a non-negotiable monetary
amount was offered, and the PlaintifEAppellant declined.

.

T

m

V

7

:__ REASONS_FOR_GRANT1NG THE PETITION

I.

Throughout the entire claim Teleperformance Inc. failed to provide substantial or
supportive evidence that a security breach occurred by the Plaintiff/Appellant on the day
in question. "Under Florida law, rescission of contract may be influenced under Florida
law by mutual agreement of parties, by one of the parties declaring rescission without the
other if legally sufficient ground therefore exists, or by applying to courts for decree of
rescission” (Thomson Reuters Westlaw). There is an inoperable discrepancy because the
evidence that a security breach was committed by die PlaintiffiAppellant is nonexistent to
validate that die termination of the Plaintiff/Appellant was legally warranted, and/or
wrongfully terminated based on the contractual agreement between Marguerite T. Martin
and Jeleperformance Inc. Cognizable decisions and offenses such as these drastically
'.i

impacts future employment qualifications for the Plaintiff/Appellant Pirtek USA, LLCv.
Tmllman 2016 WL 5846978. *5. M.D.Fla.

II.

However, although the Defendant did not provide evidence that a security breach had
occurred on the day in question, the anemia medical condition is the sole reason for the
alleged breach. The Plaintiff/Appellant did advise supervisors as well as employees of the
business of the condition while employed with the business. Before terminating the
Plaintiff/Appellant, the floor manager asked the Plaintiff/Appellant die reason for the
abrupted entrance in the building, the Plaintiff/Appellant answered and stated that she

8

begantoseverely^hakeoutside_due to theweather and an anemia condition. Making the
manager fully aware of the Plaintiff/Appellant’s anemia and the conditions associated.
After a detailed explanation of the condition, explained by the Plaintiff/Appellant, the
manager proceeded with the termination. Jacobs v. N.C. Administrative Office of the
Courts. United States Court ofAppeals, Fourth Circuit. March 12, 2015 780 F.3d 562
2015.

III.

In addition, the identical issue (security breach) that the Plaintiff/Appellant was allegedly
terminated for, company employees did share confidential information regarding the
Plaintiff/Appellant’s termination details. Under the Privacy Act of 1974 that “protects
records about individuals retrieved by personal identifiers such as a name, social security
number, or other identifying number or symbol. Individuals to whom the information
belongs to has rights under the Privacy Act to seek access to and request correction (if
applicable) or an accounting of disclosures of any such records maintained about him or
her. Prohibits disclosure of such records without the prior, written consent of die
individual to whom the records pertain”. § 304.20 General provisions.! C.F.R. Subpart B

9

CONCLUSION
The relief the plaintiff seeks this Petition of Writ~bf Certiorariisto'clear the nameofthe---------Plaintiff?Appellant’s alleged termination reason, “security breach”. The plaintiff would farther
request compensation and want the Supreme Court to determine a substantial monetary value of
present and future damages caused by the business’ employees because of this incident. The
Plaintiff/Appellant has been searching for employment since 2018 and has not worked in a
professional setting since this incident occurred. Although Teleperformance Inc. has issued the
Plaintiff?Appellant a notice of a Class Action Settlement, recently in 2021, involving employees during
the time period of her employment with the business, die PlaintifE'Appellant would prefer not to
participate.

ikr

! #-• -

’ 8

*

10

*

CONCLUSION

The petition for a writ of certiorari should be granted.
• v.' •
■■isp;

Res

tbmii
h

=2
Date:

jTulj ib,3-Q3-1

g

11
1

